                                              BUREAU OF LABOR
                                              STATISTICS
Office of Inspector General—Office of Audit




                                              STRENGTHENING FORMAL WRITTEN PROCEDURES MAY
                                              DECREASE THE POSSIBILITY OF INCONSISTENCIES
                                              OCCURRING IN SURVEY OF OCCUPATIONAL INJURIES
                                              AND ILLNESSES DATA RELEASES




                                                                     Date Issued: March 31, 2009
                                                                   Report Number: 02-09-201-11-001
U.S. Department of Labor                                      March 2009
Office of Inspector General
Office of Audit                                               STRENGTHENING FORMAL WRITTEN
                                                              PROCEDURES MAY DECREASE THE
                                                              POSSIBILITY OF INCONSISTENCIES
BRIEFLY…                                                      OCCURRING IN SURVEY OF OCCUPATIONAL
Highlights of Report Number 02-09-201-11-001 to the           INJURIES AND ILLNESSES DATA RELEASES
Commissioner, Bureau of Labor Statistics.

WHY READ THE REPORT                                           WHAT OIG FOUND
The Bureau of Labor Statistics (BLS) is responsible for       While BLS implemented OMB’s 2006 Standards and
collecting and compiling accurate statistics on the extent    Guidelines for Statistical Surveys related to SOII
of occupational injuries and illnesses in the United          development and data collection, its formal written
States. To meet this responsibility, BLS conducts the         policies and procedures did not fully incorporate all of
Survey of Occupational Injuries and Illnesses (SOII)          the OMB requirements.
annually, under authority from the Occupational Safety
and Health (OSH) Act of 1970.                                 OMB Standards for Federal statistical programs serve
                                                              both the interests of the public and the needs of the
During September 2006, the Office of Management and           government by helping to ensure information
Budget (OMB) issued government–wide policy and                disseminated by Federal statistical agencies is useful,
procedural guidance for ensuring and maximizing the           accurate, reliable, and unbiased. Strengthening formal
quality, objectivity, utility, and integrity of information   written policies and procedures to incorporate the
disseminated by Federal statistical agencies. OMB             requirements prescribed in the OMB standards can help
published 20 standards that document professional             decrease the possibility of inconsistencies occurring in
principles and practices Federal agencies are required to     SOII data releases, especially when employees with
adhere to, and the level of quality and effort expected in    institutional knowledge of SOII leave the agency.
all statistical activities disseminated by the Federal
government. The 20 standards are divided among 7              WHAT OIG RECOMMENDED
elements or topics in OMB’s 2006 Standards and                The OIG recommended the Commissioner, Bureau of
Guidelines for Statistical Surveys.                           Labor Statistics ensure that formal written policies and
                                                              procedures for SOII fully incorporate the seven
We audited BLS for compliance with OMB’s Standards            standards for survey development and data collection
and Guidelines for Statistical Surveys, limited to the        contained in OMB’s 2006 Standards and Guidelines for
survey development and data collection standards. The         Statistical Surveys.
survey development and data collection standards affect
the earlier stages of the SOII process and provide the        BLS acknowledged the report’s finding, accepted the
foundation for the other OMB standards which affect           recommendation, and plans to enhance SOII’s formal
processing, editing, estimating, analyzing, reviewing,        documentation to fully incorporate the OMB standards.
and disseminating data.


WHY OIG CONDUCTED THE AUDIT
The audit objective was to determine if BLS complied
with OMB standards for SOII development and data
collection.


READ THE FULL REPORT
To view the report, including the scope, methodology,
and full agency response, go to:

http://www.oig.dol.gov/public/reports/oa/2009/02-09-201-
11-001.pdf
              U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      Survey of Occupational Injuries and Illnesses
                               Report Number: 02-09-201-11-001
                                                                   U.S. Department of Labor – Office of Inspector General




Table of Contents
Assistant Inspector General’s Report ......................................................................... 1

Results In Brief ........................................................................................................................... 2

Objective – Did BLS comply with OMB standards for Survey of Occupational
             Injuries and Illnesses (SOII) development and data collection? ......... 3

     Finding – Formal written policies and procedures did not fully incorporate
               all of the OMB requirements ...................................................................... 3

Recommendation .......................................................................................................... 7

Appendices

     Appendix A Background .......................................................................................... 11
     Appendix B Objectives, Scope, Methodology, and Criteria...................................... 13
     Appendix C Acronyms and Abbreviations................................................................ 15
     Appendix D BLS Response to Draft......................................................................... 17




                                                                                 Survey of Occupational Injuries and Illnesses
                                                                                          Report Number: 02-09-201-11-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      Survey of Occupational Injuries and Illnesses
                               Report Number: 02-09-201-11-001
                                             U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                        Office of Inspector General
                                                Washington, DC 20210




March 31, 2009

                          Assistant Inspector General’s Report



Dr. Keith Hall
Commissioner, Bureau of Labor Statistics
U.S. Department of Labor
2 Massachusetts Avenue, NE
Washington, DC 20212-0001

The Office of Inspector General (OIG), Office of Audit, performed an audit of the Survey
of Occupational Injuries and Illnesses (SOII) conducted by the Bureau of Labor
Statistics (BLS). BLS is responsible for collecting and compiling accurate statistics on
the extent of occupational injuries and illnesses in the United States. To meet this
responsibility, BLS conducts the SOII annually, under authority from the Occupational
Safety and Health (OSH) Act of 1970.

During September 2006, the Office of Management and Budget (OMB) issued
government–wide policy and procedural guidance for ensuring and maximizing the
quality, objectivity, utility, and integrity of information disseminated by Federal statistical
agencies. OMB published 20 standards that document professional principles and
practices Federal agencies are required to adhere to, and the level of quality and effort
expected in all statistical activities disseminated by the Federal Government. The 20
standards are divided among 7 elements or topics in OMB’s 2006 Standards and
Guidelines for Statistical Surveys.

The audit objective was to determine if BLS complied with OMB standards for SOII
development and data collection.

The audit covered current BLS practices, policies and procedures at the time of audit
fieldwork. We audited BLS for compliance with OMB’s Standards and Guidelines for
Statistical Surveys, limited to the survey development and data collection standards.
These 7 standards affect the earlier stages of the SOII process and provide the
foundation for the other 13 OMB standards which affect processing, editing, estimating,
analyzing, reviewing and disseminating data.

We conducted this audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on the audit objective. We believe that the evidence

                                                         Survey of Occupational Injuries and Illnesses
                                                                  Report Number: 02-09-201-11-001
                                               1
                                          U.S. Department of Labor – Office of Inspector General


obtained provides a reasonable basis for our findings and conclusions based on the
audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.

RESULTS IN BRIEF

While BLS implemented OMB’s 2006 Standards and Guidelines for Statistical Surveys
related to SOII development and data collection, its formal written policies and
procedures did not fully incorporate all of the OMB requirements. Strengthening its
written procedures will mitigate the risk of inconsistencies occurring in SOII data
releases, particularly when experienced employees leave the agency.

In response to the report, BLS acknowledged this report’s finding. It plans to develop a
centralized source of information for SOII and enhance the survey’s formal
documentation to fully incorporate the OMB requirements as well as the rationale,
methodology, and historical basis of the survey. The BLS response is included in its
entirety in Appendix D.

BLS’ response and proposed actions are consistent with our finding and
recommendation to ensure that its formal written policies and procedures for SOII fully
incorporate OMB’s seven standards for survey development and data collection.




                                                   Survey of Occupational Injuries and Illnesses
                                                            Report Number: 02-09-201-11-001
                                            2
                                           U.S. Department of Labor – Office of Inspector General




RESULTS AND FINDINGS

Objective – Did BLS comply with OMB standards for SOII development and
             data collection?

While BLS implemented OMB’s 2006 Standards and Guidelines for Statistical Surveys
related to SOII development and data collection, its formal written policies and
procedures did not fully incorporate all of the OMB requirements. BLS should
strengthen its written policies and procedures for SOII as shown in the chart below.

                              Enhanced
                               Policy
          Standards                                            Details
                               Needed
    Section 1 – Development of Concepts, Methods, and Design
                                         Enhance policies and procedures to define a “major
    OMB 1.1 - Survey                     revision” to a survey and address the development
                                 √
    Planning                             of a written plan in the event of a major revision to
                                         SOII.
                                         Enhance policies and procedures to address
    OMB 1.2 - Survey Design      √
                                         updating the survey design when changes occur.
                                         Enhance policies and procedures by documenting
    OMB 1.3 - Survey
                                 √       rationale as to how SOII procedures were designed
    Response Rate
                                         to achieve the highest practical rates of response.
    OMB 1.4 - Pretesting
                                         BLS had previously completed the survey process.
    Survey Systems
    Section 2 – Collection of Data
                                         Enhance policies and procedures to provide
    OMB 2.1 - Developing
                                 √       detailed descriptions on how specific activities are
    Sampling Frames
                                         used in the SOII process.
    OMB 2.2- Required                    Enhance policies and procedures to ensure the
                                 √
    Notifications                        required information is included on its survey form.
    OMB 2.3 - Data                       Enhance policies and procedures to document its
                                 √
    Collection Methodology               rationale for the SOII data collection methodology.



Details of how BLS implemented the OMB Standards, and where policies and
procedures can be improved, are shown below.

Standards related to survey development:

Survey Planning

OMB Standards and Guidelines for Statistical Surveys, Section 1.1 states:

      Agencies initiating a new survey or major revision of an existing survey
      must develop a written plan that sets forth a justification, including goals


                                                     Survey of Occupational Injuries and Illnesses
                                                              Report Number: 02-09-201-11-001
                                             3
                                         U.S. Department of Labor – Office of Inspector General


      and objectives, potential users, the decisions the survey is designed to
      inform, key survey estimates, the precision required of the estimates …

BLS officials stated that SOII had no major revisions to its forms or survey processes
since the OMB Standards were issued in September 2006. However, neither OMB nor
BLS defined what constitutes a major revision to a statistical survey. In addition, BLS
does not have policies and procedures that address the development of a written plan in
the event of a major revision. BLS should define a “major revision” and develop
appropriate policies and procedures to decrease the risk of future non-compliance with
the OMB standards.

Survey Design

OMB Standards and Guidelines for Statistical Surveys, Section 1.2 states:

      Agencies must develop a survey design, including defining the target
      population, designing the sampling plan, specifying the data collection
      instrument and methods, developing a realistic timetable and cost
      estimate, and selecting samples using generally accepted statistical
      methods.

BLS developed the survey design of SOII in accordance with the OMB standard. The
BLS Handbook of Methods, Chapter 9 and its OMB Supporting Statement Parts A and
B contained the specific items required to be developed within a survey design.
However, BLS should develop policies and procedures for updating its survey design
when changes occur to ensure the survey design remains current.

Survey Response Rate

OMB Standards and Guidelines for Statistical Surveys, Section 1.3 states:

      Agencies must design the survey to achieve the highest practical rates of
      response, commensurate with the importance of survey uses, respondent
      burden, and data collection costs, to ensure that survey results are
      representative of the target population so that they can be used with
      confidence to inform decisions.

BLS used a number of practices, including non-response mailings and telephone follow-
up, to help maximize survey response. These practices resulted in a usable response
rate of 92 percent. However, BLS did not document its rationale as to how these
procedures were designed to achieve the highest practical rates of response. The lack
of this rationale could result in a situation where changes to the procedures introduce
bias into SOII estimates.




                                                  Survey of Occupational Injuries and Illnesses
                                                           Report Number: 02-09-201-11-001
                                           4
                                           U.S. Department of Labor – Office of Inspector General


Pretesting Survey Systems

OMB Standards and Guidelines for Statistical Surveys, Section 1.4 states:

      Agencies must ensure that all components of a survey function as
      intended when implemented in the full-scale survey, and that
      measurement error is controlled by conducting a pretest of the survey
      components or by having successfully fielded the survey components on a
      previous occasion.

BLS had conducted SOII since 1972 and was aware that the survey components were
functioning as intended.

Standards related to data collection:

Developing Sampling Frames

OMB Standards and Guidelines for Statistical Surveys, Section 2.1 requires agencies to
“ensure that the frames for the planned sample survey or census are appropriate for the
study design and are evaluated against the target population for quality.”

The BLS Sample Refinement System (SRS) manual documented that the sampling
frame was appropriate for SOII and the system was capable of performing activities to
assist in evaluating the survey frame. However, the SRS manual lacked detailed
procedures on how the activities were used in the SOII process. BLS should strengthen
its policies and procedures by including detailed procedures on how the activities were
used in the SOII process.

Required Notifications

OMB Standards and Guidelines for Statistical Surveys, Section 2.2 states:

      Agencies must ensure that each collection of information instrument
      clearly states the reasons the information is planned to be collected; the
      way such information is planned to be used to further the proper
      performance of the functions of the agency; whether responses to the
      collection of information are voluntary or mandatory (citing authority); the
      nature and extent of confidentiality to be provided, if any, citing authority;
      an estimate of the average respondent burden together with a request that
      the public direct to the agency any comments concerning the accuracy of
      this burden estimate and any suggestions for reducing this burden; the
      OMB control number; and a statement that an agency may not conduct
      and a person is not required to respond to an information collection
      request unless it displays a currently valid OMB control number.




                                                    Survey of Occupational Injuries and Illnesses
                                                             Report Number: 02-09-201-11-001
                                            5
                                           U.S. Department of Labor – Office of Inspector General


BLS included all the required information with its survey form. However, it did not have
procedures that required all the specific items be included with its survey form.

Data Collection Methodology

OMB Standards and Guidelines for Statistical Surveys, Section 2.3 requires agencies to
“design and administer their data collection instruments and methods in a manner that
achieves the best balance between maximizing data quality and controlling
measurement error while minimizing respondent burden and cost.”

In addition, the Confidential Information Protection and Statistical Efficiency Act of 2002
states that protecting “information provided under a pledge of confidentiality for
statistical purposes . . . is essential in continuing public cooperation in statistical
programs.”

BLS requested that SOII respondents track illness and injury data throughout the survey
year using Occupational Safety and Health Administration (OSHA) logs and
supplementary forms, and ultimately submitting that data via the BLS survey form.
Although this practice appears burdensome, BLS did this to preserve confidentiality
while maximizing data quality. If employers did not maintain a running log of illnesses
and injuries throughout the year, the quality of data would be degraded when employers
submitted the BLS survey form at year-end. At the same time, if BLS were to request
employers track their illness and injury data throughout the year on a BLS survey form,
respondent confidentiality could be violated if the forms were uncovered during an
OSHA inspection.

While BLS had considered respondent burden, data quality, and confidentiality in
designing and administering its data collection instrument and methods, it did not
document its rationale for this data collection methodology in its policies and
procedures. Without a documented rationale, both data quality and confidentiality could
become compromised should changes be made to the SOII data collection instrument
or methods in the future. This risk is increased when experienced staff leave the
agency.
                                        —————

OMB Standards for Federal statistical programs serve both the interests of the public
and the needs of the government by helping to ensure information disseminated by
Federal statistical agencies is useful, accurate, reliable, and unbiased. Strengthening
formal written policies and procedures to incorporate the requirements prescribed in the
OMB standards can decrease the possibility of inconsistencies occurring in SOII data
releases, especially when employees with institutional knowledge of SOII leave the
agency.

Recommendation

We recommend the Commissioner, Bureau of Labor Statistics ensure that formal written
policies and procedures for SOII fully incorporate the seven standards for survey

                                                    Survey of Occupational Injuries and Illnesses
                                                             Report Number: 02-09-201-11-001
                                             6
                                       U.S. Department of Labor – Office of Inspector General


development and data collection contained in OMB’s 2006 Standards and Guidelines
for Statistical Surveys.




Elliot P. Lewis




                                                Survey of Occupational Injuries and Illnesses
                                                         Report Number: 02-09-201-11-001
                                         7
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      Survey of Occupational Injuries and Illnesses
                               Report Number: 02-09-201-11-001
              8
             U.S. Department of Labor – Office of Inspector General




Appendices




                      Survey of Occupational Injuries and Illnesses
                               Report Number: 02-09-201-11-001
              9
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      Survey of Occupational Injuries and Illnesses
                               Report Number: 02-09-201-11-001
              10
                                            U.S. Department of Labor – Office of Inspector General


                                                                                   Appendix A
Background

In September 2006, OMB issued government–wide policy and procedural guidance for
ensuring and maximizing the quality, objectivity, utility, and integrity of information
disseminated by Federal statistical agencies. OMB published 20 standards that
document professional principles and practices Federal agencies are required to adhere
to, and the level of quality and effort expected in all statistical activities disseminated by
the Federal Government. The framework for these standards includes:

   •   Development of concepts, methods, and design
   •   Collection of data
   •   Processing and editing of data
   •   Production of estimates and projections
   •   Data analysis
   •   Review procedures
   •   Dissemination of information products

BLS conducts SOII annually, in cooperation with participating state governments and
under authority from the OSH Act of 1970. BLS is responsible for collecting and
compiling accurate statistics on the extent of occupational injuries and illnesses in the
United States.

SOII data are used by national and state policymakers to make policy decisions
involving occupational safety and health problems; OSHA to target industries that need
to improve safety programs and to measure the effectiveness of the OSH Act in
reducing work-related injuries and illnesses; labor and management to evaluate their
own safety programs; and others involved with job safety and health. The survey
collects information on the characteristics of the most serious of its nonfatal cases—
those involving lost worktime—and the traits of workers sustaining such injuries and
illnesses.

The survey sample selected by BLS consists of approximately 250,000 establishments
from private industry as well as state and local governments. A Federal cooperative
agreement permits participating state agencies to collect and process data using
standardized procedures established by BLS to ensure uniformity and consistency.
Each year, BLS publishes a comprehensive bulletin covering national results. Selected
national data are also published in two news releases.




                                                      Survey of Occupational Injuries and Illnesses
                                                               Report Number: 02-09-201-11-001
                                             11
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      Survey of Occupational Injuries and Illnesses
                               Report Number: 02-09-201-11-001
              12
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix B
Objectives, Scope, Methodology, and Criteria


OBJECTIVE

The objective was to determine if BLS complied with OMB standards for SOII
development and data collection.

SCOPE

We conducted this audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on the audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on the
audit objective. Fieldwork was conducted at BLS’ headquarters office located in
Washington, D.C.

A performance audit includes an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other compliance requirements. In order to plan this performance audit,
we considered whether internal controls significant to the audit were properly designed
and placed in operation. However, we did not assess overall internal controls.

The audit covered current BLS practices, policies and procedures at the time of audit
fieldwork. We audited BLS for compliance with OMB’s Standards and Guidelines for
Statistical Surveys, limited to the survey development and data collection standards.
These 7 standards affect the earlier stages of the SOII process and provide the
foundation for the other 13 OMB standards which affect processing, editing, estimating,
analyzing, reviewing and disseminating data.

METHODOLOGY

To determine if BLS complied with the OMB standards for SOII development and data
collection, we obtained an understanding of the SOII process by reviewing BLS policies
and procedures, survey collection forms, clearance package supporting statements
provided to OMB, and other internal BLS documents. We also interviewed BLS
management and staff responsible for conducting SOII.

We then analyzed the policies and procedures for compliance with each of the OMB
standards for survey development and data collection.

Standards related to survey development include:
   • 1.1 - Survey Planning
   • 1.2 - Survey Design
   • 1.3 - Survey Response Rates

                                                    Survey of Occupational Injuries and Illnesses
                                                             Report Number: 02-09-201-11-001
                                            13
                                          U.S. Department of Labor – Office of Inspector General


   •   1.4 - Pretesting Survey Systems

Standards related to data collection include:
   • 2.1 - Developing Sampling Frames
   • 2.2 - Required Notifications to Potential Survey Respondents
   • 2.3 - Data Collection Methodology

We also obtained an understanding of the different information systems BLS used to
collect and process SOII data. We interviewed staff responsible for these systems,
reviewed the systems’ operating manuals and related procedures, and observed the
systems in operation. In addition, we performed data reliability tests on 2006 SOII data
from each system to obtain reasonable assurance that information system controls were
operating as intended.

CRITERIA

We used the following Federal laws and regulations to perform this audit:
  • OMB Standards and Guidelines for Statistical Surveys, September 2006
  • OMB Circular A-123-Management's Responsibility for Internal Control,
     December 2004
  • OSH Act of 1970
  • Department of Labor Manual Series 1-300 (Information Collection Management
     Program), March 2001
  • Confidential Information Protection and Statistical Efficiency Act of 2002




                                                   Survey of Occupational Injuries and Illnesses
                                                            Report Number: 02-09-201-11-001
                                           14
                                        U.S. Department of Labor – Office of Inspector General


                                                                               Appendix C
Acronyms and Abbreviations


BLS        Bureau of Labor Statistics
DOL        U.S. Department of Labor
OIG        Office of Inspector General
OMB        Office of Management and Budget
OSH        Occupational Safety and Health
OSHA       Occupational Safety and Health Administration
SOII       Survey of Occupational Injuries and Illnesses
SRS        Sample Refinement System




                                                 Survey of Occupational Injuries and Illnesses
                                                          Report Number: 02-09-201-11-001
                                         15
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      Survey of Occupational Injuries and Illnesses
                               Report Number: 02-09-201-11-001
              16
                               U.S. Department of Labor – Office of Inspector General


                                                                     Appendix D
BLS Response to Draft Report




                                        Survey of Occupational Injuries and Illnesses
                                                 Report Number: 02-09-201-11-001
                                17
U.S. Department of Labor – Office of Inspector General




         Survey of Occupational Injuries and Illnesses
                  Report Number: 02-09-201-11-001
 18
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:      http://www.oig.dol.gov/hotlineform.htm
Email:       hotline@oig.dol.gov

Telephone:   1-800-347-3756
             202-693-6999

Fax:         202-693-7020

Address:     Office of Inspector General
             U.S. Department of Labor
             200 Constitution Avenue, N.W.
             Room S-5506
             Washington, D.C. 20210
